                Securities and Exchange
                     Commission

              Office of Inspector General

      Semiannual Report to Congress

                               Executive Summary
During this reporting period (April 1, 1999 to September 30, 1999) the Office of Inspector
General (Office) issued six audit reports and four audit memoranda. The audits focused on
sensitive Commission information; oversight of Self-Regulatory Organization arbitration;
procurement and contracting; year 2000--non-information technology; Commissioners’ travel;
Unix security; the Office of Information Technology help desk; acknowledgment letters from the
ACTS system; enforcement case origins; and the advance commitment program. The Audit
Program section below describes these audits further.
Seven investigations were closed during the period. Two cases were referred to the Commission;
one was also referred to the Department of Justice (which declined prosecution). Two referrals
to Commission management remain pending.
An audit of sensitive information found that additional controls could significantly enhance the
effectiveness of the system of controls. Management concurred with our recommendation to
strengthen the controls and established a task force to implement corrective actions. We are
reporting the protection of sensitive information as a “significant problem.”
During this reporting period, the Commission announced that it had completed remediation and
testing of its information systems for year 2000 compliance, a previously reported significant
problem. It is also developing contingency plans in case any systems fail because of year 2000
problems. We are continuing an audit of the year 2000 effort and are making recommendations
to management as appropriate.
Information resources management (IRM) continues to experience significant problems.
Specifically, systems development contracting and IRM planning remain problem areas. With
the completion of year 2000 compliance, Commission management expects to devote more
                                                                                          Page        2
attention to strengthening these areas. The Office of Information Technology has reorganized
and is using out-sourcing to improve its performance. The Commission has also established a
senior level information technology committee to monitor information technology investments
and issued security guidance.
Another previously reported significant problem involves controls over the collection of fees.
Although statutory changes have eliminated many of the fees most at risk and the Commission
has made many improvements in controls over the collection of filings fees, the overall control
structure remains inadequate. This condition will remain until a new fee system, which is
currently in development, is implemented.
Attached to this report is a table describing the Office’s fiscal year 1999 results, based on
categories in our five-year strategic plan. The table lists five objectives/strategies, followed by
related output and outcome performance measurement data.



                                             Audit Program
The Office issued six audit reports and four audit memoranda during the reporting period. The
reports contained a total of 30 recommendations, which are further described below.
Management generally concurred with the recommendations.


SENSITIVE INFORMATION                                                                      AUDIT
277, MAY 3, 1999
We conducted an audit survey of management’s controls for safeguarding sensitive information
in the possession of the Commission. Types of sensitive information include market sensitive
(e.g., knowledge of unannounced mergers), proprietary (e.g., trading models), business (e.g.,
customer lists), and information of interest to foreign governments.
The objective of the survey was to identify what sensitive information exists throughout the
Commission and the management controls which safeguard that information. We interviewed
Commission staff and reviewed supporting documentation, among other procedures.
We documented several management controls to protect sensitive information. However, we
found that additional controls could significantly enhance the effectiveness of the system of
controls. We provided senior management with an oral briefing of our findings and
recommended that management strengthen its controls. Management concurred and established
a task force to implement corrective actions.
We are reporting sensitive information as a “significant problem” later in this report.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      OCTOBER 29, 1999
                                                                                     Page      3
OVERSIGHT OF SRO ARBITRATION                                                          AUDIT
289, AUGUST 24, 1999
The Commission has statutory authority to ensure that Self-Regulatory Organization (SRO)
arbitration procedures are adequate and consistent with the Securities Exchange Act of 1934.
Commission oversight includes two main components. The Division of Market Regulation
(MR) reviews SRO arbitration rule filings and the Office of Compliance Inspections and
Examinations (OCIE) conducts periodic inspections of SRO arbitration programs to ensure
compliance with applicable rules.

We conducted an audit of the Commission’s oversight of SRO arbitration programs. Our
objectives were to evaluate the effectiveness and efficiency of Commission operations in
overseeing SRO arbitration. We also coordinated our audit scope and work steps with the
General Accounting Office, which has a related audit now underway. During the audit, we
interviewed officials within and outside the Commission, and reviewed arbitration-related
documentation.

Overall, we found that Commission oversight operations were effective and efficient.
Commission review of SRO rule filings and inspections of SRO arbitration programs were
generally thorough and timely. Additionally, officials from the SROs, industry groups, and
academia were mostly complimentary of the Commission’s oversight and spoke highly of the
professionalism and experience of Commission staff.

SRO and investor representatives identified several policy issues, most of which Commission
staff were aware of and had either considered or had plans to address. These issues involved
predispute arbitration agreements, unpaid arbitration awards, panel selection, securities
mediation, contingency plans, on-line filings, legal representation, the Securities Industry
Conference on Arbitration, and noteworthy practices memoranda.

We also identified opportunities for enhancing the Commission’s arbitration oversight and
increasing public understanding of and confidence in SRO arbitration. Specifically, we made
recommendations regarding public awareness, data analysis and tracking, complaint information,
and arbitration guidance.


PROCUREMENT AND CONTRACTING
AUDIT 290, SEPTEMBER 21, 1999
The Federal Acquisition Streamlining Act (FASA) of 1994 aimed to promote economy and
efficiency in contracting. FASA allowed procurements under $100,000 to be awarded as small
purchases, under simplified procedures, if agencies publicized them electronically. It
encouraged the use of simplified and cost-effective procedures such as the use of imprest funds,
purchase orders, blanket purchase agreements, and the government-wide credit card. For large

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 29, 1999
                                                                                        Page       4
procurements, it encouraged the use of multiple indefinite quantity contracts under a single
solicitation (known as Government-Wide Acquisition Contracts, or GWAC).
Our primary objective in this audit was to determine whether the Commission appropriately
implemented the provisions of the FASA. We also sought to review actions taken on
recommendations in a prior audit of major contracts (Audit No. 239), and to follow-up on a
significant contracting weakness in the Office of Information Technology. Among other
procedures, we interviewed procurement staff, reviewed procurement policies and procedures,
and examined a judgment sample of small purchases and contracts.
We found that the Commission has generally implemented the provisions of the FASA. It has
also taken appropriate action on recommendations from a prior OIG review of major contracts.
The Office of Information Technology has reorganized, and has plans to address the weakness in
contracting for systems development. We recommended that it implement these plans. Our
other recommendations to enhance procurement and contracting included: ensuring that
unneeded contract funds are promptly deobligated; encouraging the regions to use blanket
purchase agreements for repetitive purchases; and training regional procurement staff.


YEAR 2000 - NON-INFORMATION TECHNOLOGY
AUDIT 291, AUGUST 9, 1999
The Office of Inspector General (OIG) is auditing the agency’s efforts in making its information
systems year 2000 compliant. The scope of these audits had not, however, included non-
information technology systems (such as elevators, power, and telephones).
Accordingly, the OIG issued a task order to Cotton & Company (Cotton), an independent CPA
firm, to evaluate the Commission’s progress in ensuring that its non-information technology
systems are year 2000 compliant. Cotton interviewed Commission staff, reviewed building
leases and year 2000 certifications, and performed detailed follow-up work on a sample of field
offices, among other procedures.
Cotton found that overall the Commission has taken numerous steps to ensure year 2000
compliance for its non-information technology systems, and to minimize disruptions should
problems occur. However, progress in receiving certifications from landlords has been
somewhat slow, despite efforts by the Office of Administrative and Personnel Management
(OAPM).
OAPM stated that many building owners are reluctant to respond to year 2000 inquiries because
of liability issues, and that in many cases building owners intend their facilities will be year 2000
compliant. Other mitigating factors are that emergency power will be available for key
headquarters operations, and examiners in the field offices can use laptop computers to work
outside the office.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      OCTOBER 29, 1999
                                                                                        Page          5
The audit recommended that OAPM continue its efforts to obtain year 2000 certifications, and
that the Office of the Executive Director should continue to coordinate the field offices’
development of year 2000 contingency plans.


COMMISSIONERS’ TRAVEL                                                                     AUDIT
294, JUNE 8, 1999
Last year, the Office of Inspector General conducted audits of the Commissioners’ Travel (No.
280) and of Travel Upgrades (No. 281) at the request of the Subcommittee on National
Economic Growth, Natural Resources, and Regulatory Affairs of the House Committee on
Government Reform and Oversight. Our audit of the Commissioners’ travel was a follow-up to
last year’s review.
The audit objective was to determine whether the trips were for official business, for reasonable
periods of time given the purpose of the trip, and that the expenses claimed were valid. We also
evaluated relevant management controls and tested a judgment sample of Commissioner travel
vouchers.
The results of our tests indicated that, with respect to the items reviewed, the Commissioners
complied in all material respects with the Commission’s travel policies and procedures. In
addition, management controls over Commissioner travel were in place and functioning as
intended.
However, we also found that the Commissioner’s travel vouchers in some cases were not
submitted timely after the end of the trip, or contained errors (such as incorrect per diem rates),
which were corrected by the Comptroller’s Office. The Commission plans to replace paper
processing of travel documents with an automated system, which is expected to increase the
accuracy of travel vouchers throughout the Commission.


UNIX SECURITY
AUDIT 296, SEPTEMBER 14, 1999
The Unix operating system is installed on approximately 80 servers throughout the Commission,
performing security (firewall), database, and general application functions. Unix systems
administration is performed by the Office of Information Technology (OIT) Systems Software
Branch, Applications Development Team, and Security Group.
The Commission has reported ADP security as a material weakness since 1989. Formation of
the Security Group during OIT’s recent reorganization and the issuance of an agency-wide
security policy are two major steps in addressing this weakness.
Our objective was to evaluate the Commission’s security practices over its Unix systems at the
data center in Alexandria, Virginia. Among other procedures, we interviewed systems


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      OCTOBER 29, 1999
                                                                                    Page        6
administrators and security staff, reviewed selected documentation, and tested a judgment
sample of 5 out of approximately 80 Unix systems.
The audit found that security practices were for the most part reasonably effective. Some
general issues (user training, password use, and written procedures) will be addressed as the
Commission continues to make improvements in the ADP security area. We made several
specific recommendations to enhance Unix security practices, including updating network maps
and periodically changing and validating root passwords.


OIT HELP DESK
AUDIT MEMORANDUM 13, MAY 27, 1999
In 1997, the Office of Information Technology (OIT) awarded a task order contract to BTG Inc.
for help desk and information technology support. OIT contracted out these functions as part of
its recent reorganization.
We conducted a limited review of the contractor’s effectiveness. During the review, we
interviewed users and OIT staff and examined selected contract documentation.
We found that OIT had recognized the need to improve the contractor’s service. In September
1998, it gave the contractor 60 days to make improvements. In response, BTG developed a
performance improvement plan, changed project managers, and assigned additional staff to the
contract.
We made several recommendations to further improve help desk service, including using
financial incentives and performance monitoring data; providing users with status and problem
resolution information; and considering whether field office liaisons should have some capability
to troubleshoot Windows NT.


ACKNOWLEDGEMENT LETTERS                                                               AUDIT
MEMORANDUM 17, JUNE 8, 1999
The Public Reference Branch in the Office of Filings and Information Services (OFIS) uses the
same computer system to record and track inquiries from the public as the Office of Investor
Education and Assistance (OIEA). The system, known as the Agency Correspondence and
Tracking System (ACTS), automatically generates acknowledgement letters for both OFIS and
OIEA.

OFIS does not use the letters generated by the system and hence discards them. In fiscal year
1998, OFIS received 14,604 inquiries and therefore discarded 14,604 letters.

We brought this matter to OFIS’s attention. It discovered that manually changing a default
setting prevented an acknowledgement letter being generated. OFIS instructed its staff to change

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 29, 1999
                                                                                      Page       7
this setting whenever creating a correspondence record in ACTS, thereby preventing a waste of
paper.

ENFORCEMENT CASE ORIGINS                                                                AUDIT
MEMORANDUM 18, JULY 19, 1999
During an audit of the Commission’s Investor Education and Assistance Program (IEAP), we
identified an issue related to the enforcement program. We reviewed a sample of investigations
closed during fiscal year 1998 to determine how often IEAP complaints were the origin of
enforcement cases.

Based on interviews with enforcement staff, 32% of the investigations originated, at least in part,
through investor complaints (although not necessarily through the IEAP). According to the
Commission’s NRSI automated system, only 12% of the cases in our sample were initiated
through complaints. This discrepancy was caused by unclear case origin categories on the data
input form for NRSI.

The Division of Enforcement agreed to develop new categories and accompanying guidance
when a new case tracking system is implemented.

ADVANCE COMMITMENT PROGRAM                                                               AUDIT
MEMORANDUM 19, AUGUST 26, 1999
The Commission hires graduating law school students and summer interns through advance
commitments, competing with law firms and other employers. An advance commitment is an
agreement to work for the Commission after the student graduates or takes the bar examination.

Our objective was to improve the Commission’s success in obtaining commitments from the
most qualified law students. We interviewed Commission staff and summer interns, and
surveyed a number of law schools.

We found that the Office of Administrative and Personnel Management and the Division of
Enforcement have taken steps to enhance their law school hiring procedures. Our
recommendations to further enhance these procedures included expediting issuance of the
Commission’s revised brochure to law schools; establishing hiring committees in June so that
summer interns can be interviewed during their internship; enhancing the Commission’s website
section on law clerk positions; and reviewing clerical aspects of the advanced commitment
process.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 29, 1999
                                                                                       Page         8

                                     Investigative Program
Seven investigations were closed during the period. Two cases were referred to the Commission;
one was also referred to the Department of Justice (which declined prosecution). Two referrals
to Commission management remain pending.
At the close of the period, six investigations were pending. The pending investigations included
allegations of unauthorized disclosure, unauthorized use of assets, possession of child
pornography, conflict of interest, and theft of property. The most significant cases closed during
the period are described below.


MISUSE OF COMPUTER RESOURCES
We developed evidence that a Commission employee had accessed the Internet for personal
purposes, including downloading pirated software, using the employee’s government computer.
Our investigation also disclosed evidence that the employee had accessed a manager’s computer
data without authority, had repeatedly loaded an application on a file server that users did not
want, and had upgraded the employee’s network user privileges without authorization.
Administrative action is pending.
In another investigation involving the misuse of computer resources, we investigated allegations
that a computer assigned to a Commission employee had been used to access Internet websites
containing adult pornography. When confronted, the employee admitted accessing these sites.
Administrative action is pending.


FALSE STATEMENTS
We investigated allegations that Commission officials had issued an internal memorandum
containing false and misleading information. Another allegation was that these officials had
exceeded their authority in issuing the memorandum. The evidence we obtained failed to
support the allegations.


BRIBES
The Office investigated an allegation that two unnamed Commission officials had received
bribes from a corporation official in exchange for issuing a ruling favorable to the corporation.
The evidence failed to substantiate the allegation.

                                      Significant Problems
During this period, we conducted a survey of management’s controls for safeguarding sensitive
information (see audit No. 277 above). The survey found that these controls required
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 29, 1999
                                                                                    Page         9
strengthening to significantly enhance their effectiveness. Management concurred and
established a task force to implement corrective actions.



              Significant Problems Identified Previously

YEAR 2000
We are continuing to audit the Commission’s efforts to make its systems year 2000 compliant.
The scope of the audits includes EDGAR and Commission internal systems, as well as non-
information technology.
During this reporting period, the Commission completed remediation and testing of its systems.
On September 7, 1999, the Chairman announced that the Commission’s computer systems are
year 2000 compliant.

The Commission is developing contingency plans in the event of any system failures. It
anticipates conducting a test of these plans by the end of calendar year 1999. We intend to
monitor the remainder of the year 2000 compliance process and will share our findings and
recommendations with the Office of Information Technology (OIT) as they are developed.

INFORMATION RESOURCES MANAGEMENT
Information resources management (IRM) remains a significant concern, particularly the areas of
contracting for systems development and information resources planning.

Now that year 2000 remediation and the reorganization of OIT have been completed,
Commission management expects to devote more attention to strengthening these areas. OIT
intends to emphasize planning, control, and evaluation of information technology projects and
activities. Management has established a senior level information technology committee to
oversee information technology investments, and is implementing procedures for approval,
monitoring, and measurement of these investments.

COLLECTION OF FILING FEES
A prior audit of the collection of filing fees confirmed the Commission’s previous assessment
that the management controls were not in material conformance with accounting standards.
Although statutory changes have eliminated many of the fees most at risk and Commission
management has made significant progress in correcting the most serious weaknesses, some
corrective actions must await the implementation of a new computerized collection system.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 29, 1999
                                                                                      Page     10
The fee system is being redesigned and implemented under the EDGAR modernization contract.
A working group of managers and users is working with the contractors and developers to ensure
that the new fee system contains adequate financial controls and meets the agency’s and filers’
requirements. Until these corrective actions are fully implemented, the overall control structure
will continue to fail to provide assurance that accountability over filing fees is adequate.



                                     Access to Information
The Office of Inspector General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information, were made
during the period.



                                              Other Matters

EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of its
Financial Institutions Regulatory Committee, and serves as the ECIE member of the Integrity
Committee established by Executive Order No. 12993.
The Counsel and Associate Counsel to the Inspector General are active members of the PCIE
Council of Counsels. The Council considers legal issues relevant to the Inspector General
community.


COMMITMENT TO QUALITY IMPROVEMENT AWARD
During this reporting period, the Office received the Commitment to Quality Improvement
Award issued by the Institute of Internal Auditors. The award recognized the Office’s ongoing
commitment to professional excellence, quality of service, and professional outreach.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 29, 1999
                                                                                  Page   11




                                          Questioned Costs
                                                                             DOLLAR VALUE
                                                                            (IN THOUSANDS)

                                                                    UNSUPPORTED      QUESTIONED
                                                           NUMBER     COSTS            COSTS
A          For which no management decision has
           been made by the commencement of the
           reporting period                                     0           0                0

B          Which were issued during the reporting
           period
                                                            0           0                0

           Subtotals (A+B)                                      0           0                0

C          For which a management decision was                  0           0                0
           made during the reporting period

    (i)    Dollar value of disallowed costs                     0           0                0

    (ii)   Dollar value of costs not disallowed                 0       0                    0

D          For which no management decision has                 0       0                    0
           been made by the end of the period

           Reports for which no management                      0       0                    0
           decision was made within six months of
           issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                OCTOBER 29, 1999
                                                                                   Page   12




    Recommendations That Funds Be Put To Better Use
                                                                       DOLLAR VALUE
                                                            NUMBER    (IN THOUSANDS)
A               For which no management decision has
                been made by the commencement of the
                                                                  0            0
                reporting period
B               Which were issued during the reporting
                period
                                                              0            0
                Subtotals (A+B)                                   0            0
C               For which a management decision was               0            0
                made during the period
      (i)       Dollar value of recommendations that were         0            0
                agreed to by management
            -   Based on proposed management action               0            0
            -   Based on proposed legislative action              0            0
      (ii)      Dollar value of recommendations that were         0            0
                not agreed to by management
D               For which no management decision has
                been made by the end of the reporting
                                                                  0            0
                period
                Reports for which no management decision
                was made within six months of issuance
                                                                  0            0




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               OCTOBER 29, 1999
                                                                                   Page     13




                Reports with No Management Decisions
         Management decisions have been made on all audit reports issued before the beginning
         of this reporting period (April 1, 1999).



                          Revised Management Decisions
         No management decisions were revised during the period.



    Agreement with Significant Management Decisions
         The Office of Inspector General agrees with all significant management decisions
         regarding audit recommendations, including “Funds Put to Better Use” and “Questioned
         Costs.”




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  OCTOBER 29, 1999
                                        FY 1999 OIG PERFORMANCE MEASURES

                                                                          AUDITING

Strategic Goal: Identify and mitigate impediments to achieving Commission objectives (i.e., operational risks).


  OBJECTIVES/STRATEGIES                                        OUTPUT MEASURES                                        OUTCOME MEASURES


1. Assess operational impediments to           Develop an enhanced qualitative evaluation capacity.            The Commission achieves its strategic program
   achieving Commission objectives.                                                                            and support objectives.
                                                 In accordance with our Five Year Strategic Plan, we have
  A. Identify significant operational risks.     recently hired an auditor/facilitator. With the addition of   Commission management has an enhanced
                                                 the auditor/facilitator, the Office will commence a           understanding of operational risks.
                                                 systematic qualitative risk assessment approach beginning
                                                 in FY 2000.                                                     Through the mutual efforts of the Office and
                                                                                                                 management, internal controls for
                                               Number of significant operational risks identified.               safeguarding sensitive information throughout
                                                                                                                 the Commission are being enhanced.
                                                 The Office identified the safeguarding of sensitive             Safeguarding sensitive information is critical
                                                 information and year 2000 concerns as significant               in order for the Commission to achieve its
                                                 operational risks for the Commission. In addition, the          objectives, which include protecting investors
                                                 Office identified computer security, the misuse of              and maintaining fair, honest and efficient
                                                 government computer resources by Commission employees,          markets. The sensitive information issue was
                                                 and workplace violence as important issues for                  unique because it applied to the agency across
                                                 management to address. We anticipate that we will identify      the board; the problem was not isolated to any
                                                 additional operational risks through the efforts of our new     one office or division.
                                                 auditor/facilitator.




1. Assess operational impediments to           Percentage of performance audits in high risk programs or         After conducting an audit survey, the Office

                                                                                                                                                         Page 1
                                        FY 1999 OIG PERFORMANCE MEASURES

                                                                         AUDITING


  OBJECTIVES/STRATEGIES                                       OUTPUT MEASURES                                       OUTCOME MEASURES

   achieving Commission objectives            support functions -- planned.                                    brought the issue of safeguarding sensitive
   (CONTINUED)                                                                                                 information to the attention of the Chairman
                                                100% of all performance audits were planned in high risk       and Commission management. The Chairman
   B. Incorporate “operational risk” as the     programs or support functions.                                 and management immediately recognized the
       primary audit planning criterion.                                                                       importance of safeguarding sensitive
                                              Percentage of audits, suggested by the Commission or senior      information and agreed to strengthen controls
                                              management, scheduled in annual audit plans.                     in this area based upon the survey results,
                                                                                                               thus eliminating the immediate need for
                                                 100% of the audits suggested by the Commission or senior      further audit work.
                                                 management have been or are being performed. Audits
                                                 suggested by management included a survey of sensitive
                                                 information and an audit of telecommunication
                                                 vulnerabilities. In addition, the Office performed an audit
                                                 of Commissioners’ travel at the request of a Congressional
                                                 subcommittee.

2. Mitigate operational risks and add value   Number of audit reports (including audit memoranda and           In addition, the Office has been instrumental
   to Commission operations.                  reports on management issues arising from investigations).       in apprising Commission management of the
                                                                                                               serious risks posed to Commission operations
   A. Conduct performance audits of              The Office issued 14 audit reports and 9 audit memoranda      by year 2000 concerns. We recommended
      operational risks.                         during FY 99. Jointly, these reports contained 100            more senior management involvement in
                                                 recommendations for improvement in Commission                 addressing these concerns and several other
                                                 operations.                                                   steps to enhance the year 2000 effort.

2. Mitigate operational risks and add value   Percentage of performance audits directly related to high risk   Recently, the Commission announced that its
   to Commission operations                   programs or support functions -- conducted.                      systems are now year 2000 compliant. The
   (CONTINUED)                                                                                                 Commission is also developing a contingency


                                                                                                                                                      Page 2
                                        FY 1999 OIG PERFORMANCE MEASURES

                                                                        AUDITING


  OBJECTIVES/STRATEGIES                                      OUTPUT MEASURES                                           OUTCOME MEASURES

                                                100% of performance audits conducted were directly             plan.
   A. Conduct performance audits of             related to high risk programs or support functions.
      operational risks (CONTINUED)                                                                            The Office convened a task force comprised of
                                              Number of significant audit findings and recommendations.        Office and management personnel to address
                                                                                                               the issues of computer security and misuse of
                                                The Office made a total of 66 significant audit findings and   government computer resources. During the
                                                recommendations during FY 99.                                  task force meetings, Office staff emphasized
                                                                                                               the importance of prevention, as opposed to
                                              Percentage of significant findings and recommendations           simply detecting violations. Based upon these
                                              communicated to management before obtaining formal               meetings, management agreed to evaluate
                                              comments on draft audit reports.                                 preventive measures that could be undertaken
                                                                                                               to mitigate these computer-related risks.
                                                100% of significant findings and recommendations were
                                                communicated to management before obtaining formal             Another issue the Office brought to
                                                comments on draft audit reports.                               management’s attention was the need for a
                                                                                                               plan to prevent and deal with workplace
                                              Percentage of audit recommendations Commission                   violence. Management has begun to address
                                              management accepts.                                              this issue and is working on a policy statement
                                                                                                               concerning workplace violence.
                                                Commission management accepted 100% of the Office’s
                                                audit recommendations.


2. Mitigate operational risks and add value   Percentage of audit recommendations the Commission
   to Commission operations                   implements.
   (CONTINUED)
                                                Commission management has implemented 63% of the


                                                                                                                                                       Page 3
                                    FY 1999 OIG PERFORMANCE MEASURES

                                                               AUDITING


OBJECTIVES/STRATEGIES                                OUTPUT MEASURES                                   OUTCOME MEASURES

A. Conduct performance audits of        Office’s FY 99 audit recommendations. Management is
   operational risks (CONTINUED)        working on implementing the remaining recommendations.

B. Encourage independent              Number of material risks reported to management
   management actions to mitigate
   operational risks identified.        Material risks reported to management outside of the
                                        context of an audit included computer security and
                                        workplace violence issues. We anticipate that the number
                                        of materials risks reported to management will increase
                                        once our new auditor/facilitator implements the planned
                                        qualitative risk assessment approach.

                                      Percentage of material operational risks identified by the
                                      Office that are subsequently mitigated by management without
                                      further Office action.

                                        Management has undertaken efforts to mitigate 100% of the
                                        material risks identified by the Office outside of the audit
                                        context, without requiring further Office action.




                                                                                                                          Page 4
                                         FY 1999 OIG PERFORMANCE MEASURES

                                                                   INVESTIGATIONS


Strategic Goal: Identify and mitigate impediments to high individual and agency integrity (i.e., integrity risks).


  OBJECTIVES/STRATEGIES                                        OUTPUT MEASURES                                          OUTCOME MEASURES


1. Assess integrity risks and prevent and      Develop an enhanced qualitative evaluation capacity for          Commission staff readily refer allegations of
   deter misconduct.                           integrity risks.                                                 misconduct to the Office.

   A. Conduct integrity workshops.               Our new auditor/facilitator will begin working on a              Commission staff readily referred allegations
                                                 qualitative integrity risk assessment approach. Because of       of misconduct to the Office during FY 99.
                                                 prior OIG work in the area, this effort should be                Over 40% of the allegations we received were
                                                 operational in FY 2000.                                          from Commission employees or managers.
                                                                                                                  Commission staff as a whole appear to be
   B. Issue reports to management on           Number of investigative reports on management issues.              aware of their obligation to refer allegations
      control deficiencies identified during                                                                      of fraud, waste and abuse to the appropriate
      investigations.                            No investigative reports on management issues were issued        authority.
                                                 during FY 1999. However, during the course of
                                                 investigations, the Office’s legal staff, who conduct the        The Office is also enhancing its efforts to
                                                 investigations, consider whether any control deficiencies        solicit allegations of misconduct from the
                                                 exist that should be brought to management’s attention.          public. The Office has recently established an
                                                                                                                  Internet mailbox on the Commission’s home
   C. Maintain effective communications        Number of consultations with Office of Ethics Counsel staff.       page, to which the public may send
      with the Office of Ethics Counsel.                                                                          allegations of staff misconduct.
                                                 The Office has conducted all briefings on investigations
                                                 that were requested by the Office of Ethics Counsel. The
                                                 investigative staff also consulted with the Office of Ethics

1. Assess integrity risks and prevent and        Counsel as needed during the course of conducting                As a result of the Office’s efforts, the Office of

                                                                                                                                                             Page 5
                                        FY 1999 OIG PERFORMANCE MEASURES

                                                              INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                  OUTPUT MEASURES                                        OUTCOME MEASURES

   deter misconduct (CONTINUED)             investigations. Further, copies of 5 of 6 investigative       Ethics Counsel has better information and
                                            reports issued during FY 99 were provided to the Ethics       trends, upon which to base ethics policies at
   C. Maintain effective communications     Counsel. The Ethics Counsel was verbally advised of the       the Commission.
      with the Office of Ethics Counsel     other investigative report issued.
      (CONTINUED)


2. Solicit allegations of misconduct.     Percentage of new employees receiving Office material         Commission staff have an enhanced
                                          soliciting allegations of misconduct.                         understanding of desired and prohibited conduct.

                                            The Office has taken measures to ensure that 100% of new    Commission program operations are enhanced by
                                            Commission employees receive Office material soliciting     the public’s trust in Commission staff.
                                            allegations of misconduct.
                                                                                                        The Commission’s integrity objective (i.e., to
                                          Percentage of departing employees receiving Office material   promote high individual and agency integrity) is
                                          soliciting allegations of misconduct.                         achieved.

                                            100% of departing Commission employees were provided
                                            with Office material soliciting allegations of misconduct
                                            during FY 99.




2. Solicit allegations of misconduct      Number of allegations of misconduct received.                   The Commission has a long-standing
   (CONTINUED)                                                                                            reputation for high individual and agency
                                            One allegation of misconduct was pending at the beginning     integrity. This reputation has been enhanced


                                                                                                                                                  Page 6
                                       FY 1999 OIG PERFORMANCE MEASURES

                                                                  INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                      OUTPUT MEASURES                                       OUTCOME MEASURES

                                               of FY 99. We received 78 allegations of misconduct during      by the work of the OIG. The Office is
                                               FY 99 (excluding misdirected phone calls that were             constantly striving to assist the Commission in
                                               transferred to another agency component). Those                enhancing this reputation even further.
                                               allegations came from a variety of sources, including
                                               Commission staff, Commission management, members of
                                               the public and anonymous sources.


3. Assign allegations of misconduct          Number of allegations assigned (i.e., investigation,             The Office’s investigative case load has
   timely.                                   preliminary inquiry, monitoring, or transmittal to appropriate   declined during recent years. We believe that
                                             other organization without Office investigation).                this decline is due, in part, to an enhanced
                                                                                                              awareness of desired and prohibited conduct
                                               100% of the 79 allegations pending or received were            on the part of Commission staff. Integrity
                                               assigned for action as deemed appropriate. Of these, 18        workshops conducted by the Office in the past
                                               investigations were opened; 15 preliminary inquiries were      contributed to this enhanced awareness.
                                               conducted; 4 referrals were made outside the Commission;
                                               9 referrals were made to management or other Commission
                                               components; and 5 referrals were made to the audit staff
                                               for audit planning or risk assessment purposes.



3. Assign allegations of misconduct timely   Percentage of allegations assigned within three work days of
   (CONTINUED)                               receipt.

                                               96% (76 of 79) allegations pending or received were
                                               assigned within three work days of receipt.


                                                                                                                                                      Page 7
                                          FY 1999 OIG PERFORMANCE MEASURES

                                                                 INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                     OUTPUT MEASURES                                      OUTCOME MEASURES



4. Investigate allegations objectively,     Number of preliminary inquiries conducted.                      The Office repeatedly emphasized to
   competently, and timely, and refer                                                                       management the deterrent benefits of
   violations appropriately.                  15 preliminary inquiries were conducted during FY 99.         informing Commission staff of the types of
                                              One preliminary inquiry resulted in the opening of an         conduct that have resulted in disciplinary
                                              investigation.                                                action and the nature of the sanction imposed.
                                                                                                            Management has responded and publicized
                                            Percentage of preliminary inquiries closed within one month.    disciplinary actions, while protecting the
                                                                                                            privacy rights of individuals. In meetings with
                                              80% (12 of 15) of preliminary inquiries were closed within    management, the Office has also stressed the
                                              one month.                                                    importance of preventive measures and
                                                                                                            identified some specific steps for
                                            Number of investigations conducted.                             management’s consideration.

                                              Five investigations were pending at the beginning of FY 99
                                              The Office closed 17 investigations during FY 99. Six
                                              investigations remained pending at the end of FY 99.


4. Investigate allegations objectively,     Percentage of investigations in which the rights of subjects,   The Office has been successful in processing
   competently, and timely, and refer       complainants, and witnesses were adequately protected.          and investigating allegations in a timely
   violations appropriately (CONTINUED)                                                                     manner. As a result, both Commission
                                              The rights of subjects, complainants and witnesses were       management and staff perceive that
                                              adequately protected in 100% of the investigations            allegations of misconduct are taken seriously
                                              conducted during FY 99. Subjects were routinely provided      and view our investigative work as relevant
                                              with written notice of their rights before being asked to     and timely. In addition, investigations of stale


                                                                                                                                                     Page 8
                                     FY 1999 OIG PERFORMANCE MEASURES

                                                               INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                    OUTPUT MEASURES                                     OUTCOME MEASURES

                                             provide evidence. In addition, where complainants            evidence are avoided and the rights of
                                             requested confidentiality, every effort was made to comply   subjects are protected.
                                             with that request. The Inspector General received no
                                             complaints of unfairness during investigations.              The Inspector General has received no
                                                                                                          complaints about the quality or timeliness of
                                           Percentage of investigations completed within 6 months.        the Office’s investigative work from senior
                                                                                                          management or the Department of Justice.
                                             88% (15 of 17) investigations were closed within 6 months.

                                           Number of allegations investigated.

                                             The Office investigated a total of 23 allegations during
                                             FY 99. In addition, 17 other allegations were reviewed
                                             during preliminary inquiries.




4. Investigate allegations objectively, Number of subjects investigated.
   competently, and timely, and refer
   violations appropriately (CONTINUED)   The Office investigated a total of 21 subjects during FY 99
                                          In addition, 19 other subjects were involved in preliminary
                                          inquiries.

                                           Number of investigations in which the evidence failed to
                                           substantiate the allegations.


                                                                                                                                                   Page 9
                                     FY 1999 OIG PERFORMANCE MEASURES

                                                              INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                  OUTPUT MEASURES                                  OUTCOME MEASURES


                                            The evidence failed to substantiate the allegations in 9
                                            investigations closed during FY 99. One investigation was
                                            closed because there was insufficient information to pursue
                                            the matter further. Another investigation was not referred
                                            because the violations involved were de minimus.
                                            In addition, 11 preliminary inquiries were closed because
                                            the allegation appeared to lack merit or there was
                                            insufficient evidence to pursue the allegation further.




4. Investigate allegations objectively, Number of referrals to the Commission.
   competently, and timely, and refer
   violations appropriately (CONTINUED)   The Office referred six cases to the Commission during
                                          FY 99. These included evidence of misuse of computer
                                          resources, computer security violations, unlawful
                                          recording, unauthorized disclosure of non-public
                                          information, and false entries. In addition, information
                                          obtained through one preliminary inquiry was provided to
                                          management.


                                                                                                                             Page 10
                                      FY 1999 OIG PERFORMANCE MEASURES

                                                                INVESTIGATIONS


  OBJECTIVES/STRATEGIES                                    OUTPUT MEASURES                                   OUTCOME MEASURES


                                           Number of referrals to the Department of Justice.

                                              The Office referred one case involving misuse of computer
                                              resources and computer security violations to the
                                              Department of Justice during FY 99. We also referred a
                                              case involving a state law violation (unlawful recording) to
                                              a district attorney’s office. Prosecution was declined in
                                              both matters. In addition, the Office referred a case
                                              involving misuse of computer resources, as well as one
                                              preliminary inquiry, to the FBI for further investigation.




4. Investigate allegations objectively, Number of personnel actions or convictions resulting from
   competently, and timely, and refer   investigations.
   violations appropriately (CONTINUED)
                                           One employee was removed, and two employees received
                                           written reprimands in connection with Office investigations.
                                           In one matter, management decided to take no disciplinary
                                           action. Two matters remained pending at the end of FY 99.
                                           In addition, a contract employee who was the subject of a
                                           preliminary inquiry was removed from a Commission
                                           contract.


                                                                                                                                Page 11
                                 FY 1999 OIG PERFORMANCE MEASURES
                                                              REPORTING


Strategic Goal: Keep the Chairman and Congress fully and currently informed of Office activities and significant issues.


  OBJECTIVES/STRATEGIES                               OUTPUT MEASURES                                       OUTCOME MEASURES

1. Report to Congress.                 Semiannual reports (SARs) comply with all reporting          The Congress and Chairman are fully and currently
                                       requirements of the Inspector General Act.                   informed of office activities and material issues.

                                         Both SARs for FY 99 complied with all reporting              The Office has striven, through its SARs and
                                         requirements of the Inspector General Act.                   other efforts, to keep the Congress and
                                                                                                      Chairman fully and currently informed of office
                                       Percentage of audit reports summarized in the SARs.            activities and material issues. The Chairman
                                                                                                      has responded quickly to issues the Office has
                                         100% of the audit reports and audit memoranda issued         brought to his attention, including safeguarding
                                         during the reporting period were summarized in the SARs      sensitive information and year 2000 concerns.
                                         for FY 99.

                                       Percentage of significant investigations summarized in the
                                       SARs.

                                         100% of significant investigations were summarized in
                                         the SARs for FY 99.

                                       Office performance is reported annually in every other SAR
                                       (starting with the October 1999 report).

                                         Office performance for FY 99 is being reported in the
                                         SAR for the second half of FY 99.



1. Report to Congress (CONTINUED)      Number of testimonies, meetings, or other communications

                                                                                                                                           Page 12
                                FY 1999 OIG PERFORMANCE MEASURES
                                                          REPORTING


  OBJECTIVES/STRATEGIES                           OUTPUT MEASURES                               OUTCOME MEASURES
                                  with the Congress or its staff.

                                     The Inspector General had numerous telephone calls
                                     with Congressional staff concerning a variety of issues.
                                     In addition, the Inspector General attended several
                                     presentations by Members of Congress to the Inspector
                                     General community.


2. Report to the Chairman and     Number of meetings with, and reports to, the Chairman or
   Commission management.         senior Commission management on the Office’s activities
                                  and significant issues.

                                     The Inspector General provided written monthly reports
                                     to the Chairman on Office activities. In addition, the
                                     Inspector General and Office staff routinely met with
                                     senior Commission management on the Office’s activities
                                     and significant issues.

                                  Number of Inspector General Advisory Committee meetings
                                  conducted.

                                     The Inspector General Advisory Committee convened
                                     quarterly during FY 99 to discuss issues related to the
                                     Office or arising from its activities. Members of the
                                     Committee include the Chief of Staff, the Executive
                                     Director, the General Counsel, the Director of
                                     Enforcement and the Inspector General. The Advisory

2. Report to the Chairman and        Committee affords an opportunity for both the Inspector
   Commission management             General and management to discuss their concerns


                                                                                                               Page 13
                   FY 1999 OIG PERFORMANCE MEASURES
                                             REPORTING


OBJECTIVES/STRATEGIES               OUTPUT MEASURES                                   OUTCOME MEASURES
(CONTINUED)             candidly in an informal setting. Frequently, after the
                        Inspector General has brought an issue, such as
                        safeguarding sensitive information, to the attention of the
                        Advisory Committee, management takes action on its own
                        and eliminates the need for further work by the Office.




                                                                                                     Page 14
                                         FY 1999 OIG PERFORMANCE MEASURES
                                                               WORK QUALITY


Strategic Goal: Continuously improve Office staff, work products, and administration.


   STRATEGY/OBJECTIVES                                    OUTPUT MEASURES                                         OUTCOME MEASURES


1. Arrange for triennial peer reviews.     Arrange for a peer review of the audit program to be          The Congress, Commission, and public have
                                           completed prior to March 2000.                                confidence in the competence and professionalism
                                                                                                         of our staff.
                                             The Office has requested a peer review from the
                                             appropriate committee of the Executive Council on             The Office has been complimented on the
                                             Integrity and Efficiency (ECIE) to be completed by            competence and professionalism of the staff.
                                             March 2000.                                                   During FY 99, the Office received a
                                                                                                           Commitment to Quality Improvement Award
                                           Number of peer reviews of other OIGs conducted by Office        from the Institute of Internal Auditors in
                                           staff.                                                          recognition of the Office’s professional
                                                                                                           excellence, quality of service and professional
                                             The Office conducted a peer review of the National            outreach.
                                             Archives and Records Administration OIG.


2. Obtain input from clients and           Percentage of audit clients surveyed.                         Office staff, operations, and administration are
   Commission management on the value                                                                    more efficient and effective.
   of Office activities.                     During FY 99, the Office sent out audit surveys on a
                                             periodic basis to all organizations in which an audit was     The Office has become more efficient and
                                             completed.                                                    effective in a number of ways. For example,
                                                                                                           where an audit does not appear that it will

2. Obtain input from clients and           Percentage of investigative clients surveyed.                   result in any significant findings, the auditors

                                                                                                                                                  Page 15
                                        FY 1999 OIG PERFORMANCE MEASURES
                                                              WORK QUALITY


   STRATEGY/OBJECTIVES                                   OUTPUT MEASURES                                         OUTCOME MEASURES

  Commission management on the value                                                                       have closed the audit quickly and moved onto
  of Office activities (CONTINUED)           The Office requested client feedback on all investigative     other more promising areas. Also, the auditors
                                             reports issued during FY 99.                                  focus their efforts on significant findings and
                                                                                                           recommendations and minimize the amount of
                                          Survey feedback is used to improve Office products and           time spent on workpaper preparation, while still
                                          services.                                                        complying with GAGAS.

                                             Most of the feedback was favorable. Where there were
                                             any criticisms or suggestions for improvement, the Office
                                             contacted the source and took appropriate measures.


3. Maintain and improve the technical     Percentage of audit staff who meet or exceed GAGAS               The Office makes appropriate investments in
   proficiency of Office staff.           training requirements.                                           education and training to obtain and maintain
                                                                                                           the competencies needed to achieve its strategic
                                             100% of the audit staff met or exceeded GAGAS training        objectives. We recognize the value of human
                                             requirements.                                                 capital and staff members frequently exceed the
                                                                                                           minimum CPE requirements.
                                          Percentage of legal staff who maintain Bar memberships and
                                          obtain training to keep current professionally.                  Office staff are perceived by Commission
                                                                                                           management and staff as competent
                                             100% of the Office’s legal staff maintain Bar                 professionals who are qualified to achieve the
                                             memberships and attend periodic professional training in      Office’s mission.
                                             subjects pertinent to the Office in order to stay current.

3. Maintain and improve the technical     Percentage of audit staff who have professional certification.
   proficiency of Office staff


                                                                                                                                                Page 16
                  FY 1999 OIG PERFORMANCE MEASURES
                                          WORK QUALITY


STRATEGY/OBJECTIVES                  OUTPUT MEASURES                                  OUTCOME MEASURES

(CONTINUED)              100% of the Office’s audit staff have professional
                         certifications.

                      Number of professional certifications maintained.

                         The 9 Office staff members have a total of 13 professional
                         certifications and 8 advanced degrees. Professional
                         certifications include 4 Certified Public Accountants,
                         4 Certified Internal Auditors, 2 Certified Information
                         System Auditors, 2 Certified Government Financial
                         Managers and 1 Certified Fraud Examiner. Advanced
                         degrees include 5 masters degrees, 1 PhD and 2 JDs.




                                                                                                     Page 17
                                     FY 1999 OIG PERFORMANCE MEASURES

                                                     GOVERNMENT-WIDE ISSUES


Strategic Goal: Participate with the IG Community in addressing government-wide issues.


    OBJECTIVES/STRATEGIES                                     OUTPUT MEASURES                                    OUTCOME MEASURES


1. Actively participate in ECIE/President’s     Participation in bi-monthly ECIE meetings.                 The Office benefits from the resolution of
   Council on Integrity and Efficiency (PCIE)                                                              government-wide issues and the transfer of
   activities.                                    The Inspector General participated in all ECIE           audit and investigative techniques and
                                                  meetings.                                                knowledge.

                                                Participation in PCIE Council of Counsel’s (CCIG)            The Office has gained considerable
                                                meetings.                                                    information and insight from participation
                                                                                                             in PCIE/ECIE activities. In addition to
                                                  The Office’s attorneys are active members of the CCIG.     attending presentations at various meetings
                                                  The Office was represented at over 80% of the CCIG         (e.g., year 2000, security issues), Office staff
                                                  meetings during FY 99.                                     attend specialized training to learn of
                                                                                                             Congressional interests and evaluate the
                                                Participation in the annual joint PCIE/ECIE meeting.         impact of new laws and court decisions.

                                                  The Inspector General participated in all joint          The Office timely incorporates Congressional
                                                  ECIE/PCIE meetings, including the annual Inspector       and administration policies and concerns into
                                                  General retreat.                                         its operations.

                                                                                                             The Office performed an audit of
                                                                                                             Commissioners’ travel at the request of a
                                                                                                             Congressional subcommittee.



                                                                                                                                                  Page 18
                                       FY 1999 OIG PERFORMANCE MEASURES

                                                       GOVERNMENT-WIDE ISSUES


     OBJECTIVES/STRATEGIES                                      OUTPUT MEASURES                                     OUTCOME MEASURES

1. Actively participate in ECIE/PCIE activities   Participation in other ECIE or PCIE Committees.             Congress and OMB recognize benefits from
   (CONTINUED)                                                                                                ECIE/PCIE activities.
                                                    The Inspector General is a member of the Integrity
                                                    Committee (IC) of the PCIE and ECIE. Pursuant to            The investigative assistance we provided to
                                                    executive order, the IC is tasked with reviewing and        the IC provided benefits to Congress and
                                                    investigating administrative allegations against            OMB, as the IC has no investigative
                                                    Inspectors General and other senior staff. At the           resources of its own.
                                                    request of the IC, the Inspector General supervised an
                                                    investigation of allegations against a Deputy Inspector
                                                    General. One of the Office’s attorneys conducted the
                                                    investigation jointly with a FBI agent.

                                                    The Inspector General also provided preliminary
                                                    comments to a member of the advisory committee
                                                    considering revisions to the Government Auditing
                                                    Standards. In addition, the Inspector General met
                                                    monthly with the financial regulatory agency Inspector
                                                    General committee.




2. Participate in organizations that directly     Number of professional organizations and activities
   contribute to the IG community.                related to Office work in which staff participate.


                                                                                                                                                  Page 19
                  FY 1999 OIG PERFORMANCE MEASURES

                          GOVERNMENT-WIDE ISSUES


OBJECTIVES/STRATEGIES              OUTPUT MEASURES                                  OUTCOME MEASURES


                        Staff are members of and participate in the activities of
                        several professional organizations, including the
                        Institute of Internal Auditors (IIA), Association of
                        Directors of Investigations, Information Systems Audit
                        and Control Association, and American Institute of
                        Certified Public Accountants. The Inspector General
                        also serves on an IIA advisory board on Control Self-
                        Assessment.




                                                                                                  Page 20
